•Filing*# 116195774 E-Filed 11/05/2020 11:01:13 AM

Supreme Court of Jflorfoa
No. SC18-810

DUANE EUGENE OWEN,
Appellant,
vs.
STATE OF FLORIDA,
Appellee.
June 25, 2020
CORRECTED OPINION
PER CURIAM.
Duane Eugene Owen appeals an order of the circuit court denying his
successive motion to vacate his sentence of death under Florida Rule of Criminal
Procedure 3.851, relying on Hurst v. Florida, 136 S. Ct. 616 (2016); Hurst v. State,
202 So. 3d 40 (Fla. 2016), cert, denied, 137 S. Ct. 2161 (2017), recededfrom by
State v. Poole, 45 Fla. L. Weekly S41 (Fla. Jan. 23, 2020), clarified, 45 Fla. L.
Weekly S121 (Fla. Apr. 2, 2020); and this Court’s Hurst-related precedent
regarding death sentences that became final after June 24, 2002. We have
jurisdiction. See art. V, § 3(b)(1), Fla. Const. Applying McKinney v. Arizona, 140

S. Ct. 702, 707-09 (2020), and State v. Poole, 45 Fla. L. Weekly S41, we affirm
Owen’s sentence of death.
BACKGROUND
In 1984, Owen forcibly entered a home in which fourteen-year-old Karen
Slattery was babysitting two young children, stabbed Slattery to death, and
sexually assaulted her. Owen v. State (Owen //), 862 So. 2d 687, 700 (Fla. 2003),
cert, denied, 543 U.S. 986 (2004).1 Owen was sentenced to death after his jury
recommended this sentence by a vote of ten to two. Id. at 690.
Owen has also been convicted of the first-degree murder of another victim,
Georgianna Worden, who was murdered approximately two months after Slattery
in a scenario “substantially similar to [that] of the Slattery murder.” Id. at 691-92;
Owen v. State (Owen I), 560 So. 2d 207, 209 (Fla. 1990). Owen was sentenced to
death for Worden’s murder following his jury’s ten-to-two recommendation for
death. See Owen v. State> 596 So. 2d 985, 987 (Fla. 1992), cert, denied, 506 U.S.
921 (1992). With respect to this murder, too, Owen has sought relief under Hurst
v. Florida and Hurst v. State. Owen v. State, 247 So. 3d 394, 395 (Fla. 2018).
However, we have already held that Owen is not entitled to Hurst relief from his

1. For the sexual offense, Owen was not convicted of sexual battery, but
attempted sexual battery. Owen //, 862 So. 2d at 690. Although there was clear
evidence of a sexual assault, it was not clear whether it occurred before or after
Slattery’s death. Id. at 699.

-2-

sentence for the Worden murder because that sentence became final before June
24, 2002, the cut-off date for such relief that was established in Asay v. State, 210
So. 3d 1, 22 (Fla. 2016),.and Mosley v. State,- 209. So. 3d 1248, 1283 (Fla. 2016).
See Owen, 247 So. 3d at 395. •
Even though Owen murdered Slattery before he murdered Worden, his death
sentence for the murder of Slattery is in a different posture with respect to our
Hurst-related precedent. The reason for this difference is that Owen’s original
conviction and sentence of death for Slattery’s murder were reversed and
remanded for a new trial, see Owen I, 560 So. 2d at 212, which delayed the finality
date of his conviction and sentence for that murder. Although Owen was
convicted of the Slattery murder again and given the same sentence, the new
conviction and sentence for Slattery’s murder did not become final until after June
24, 2002, more than a decade after Owen’s conviction and sentence of death for
Worden’s murder became final. See Owen II, 862 So. 2d at 700, cert, denied, 543
U.S. 986 (2004).
With respect to the Slattery murder and the resulting sentence, which is at
issue in this case, Owen, whose DNA was found in semen recovered from
Slattery’s body, confessed to his crimes. Id. at 702. More specifically, Owen
admitted the following facts:
Owen admitted to cutting a screen out of a window to gain access to
the home where Slattery was babysitting. The first time he entered
-3-

the home, he heard noises and observed Slattery fixing the hair of one
of her charges. Owen left the home but subsequently returned.
Initially, when he returned, he had his socks on his hands, but
immediately upon entering the house, he searched a closet in the home
, and found gloves, which he placed on his hands, returning his socks to
his feet. He also retrieved a hammer from the same closet.
According to Owen, he. confronted Slattery near the phone as
she was concluding a telephone conversation. He ordered her to
return the phone to its cradle, and when she did not, he dropped his
hammer, grabbed the phone from her hand, returned it to its base, and
immediately began stabbing her. After Owen had stabbed Slattery, he
checked on the children to ensure they had not awakened during the
attack, and he then proceeded to lock the doors and turn off all the
lights and the television. Owen then dragged Slattery by her feet into
the bedroom, removed her clothes, and sexually assaulted her. He
explained to the officer questioning him that he had only worn a pair
of “short-shorts” into the house. After he sexually assaulted Slattery,
Owen showered to wash the blood from his body, and then exited the
house through a sliding glass door. He then returned to the home
where he was staying and turned the clocks back [in that house] to
read 9:00 p.m. According to Owen, he did this to provide an alibi
based on time. He admitted that after he turned the clocks back, he
purposely asked his roommate the time. Owen bragged to the officers
about his plan to turn back the clocks, explaining that he “had to be
thinking.”
Id. at 700.
Along with first-degree murder, Owen was convicted of attempted sexual
battery and burglary at his retrial. Id. at 690. After this Court affirmed Owen’s
convictions and sentence of death on direct appeal, id., and the United States
Supreme Court denied certiorari, Owen v. Florida, 543 U.S. 986 (2004), this Court
affirmed the denial of Owen’s initial postconviction motion and denied his petition
for writ of habeas corpus. Owen v. State (Owen III), 986 So. 2d 534, 541 (Fla.

-4-

2008). The federal district court subsequently denied Owen’s federal habeas
petition, the Eleventh Circuit Court of Appeals affirmed, and the Supreme Court
deni,ed certiorari. See Owen v, Fla. Dep’tof-Corr., 686F.3d 1181, 1183 (11th Cir.
2012), cert, denied, 569 U;S. 960 (2013). In the successive postconviction motion
at issue in this appeal, Owen sought relief from his death sentence pursuant to the
Supreme Court’s decision in Hurst v. Florida and this Court’s decision on remand
in Hurst v. State. The circuit court denied relief, and Owen seeks reversal of that
ruling.
ANALYSIS
In Hurst v. Florida, the Supreme Court found Florida’s capital sentencing
scheme unconstitutional because it “required the judge alone to find the existence
of an aggravating circumstance.” 136 S. Ct. at 624. In so holding, the Supreme
Court overruled its prior precedent upholding Florida’s capital sentencing scheme
“to the extent [that precedent] allow[ed] a sentencing judge to find an aggravating
circumstance, independent of a jury’s factfinding, that is necessary for the
imposition of the death penalty.” Id. Then, in Hurst v. State, this Court held the
following:
[B]efore the trial judge may consider imposing a sentence of death,
the jury in a capital case must unanimously and expressly find all the
aggravating factors that were proven beyond a reasonable doubt,
unanimously find that the aggravating factors are sufficient to impose
death, unanimously find that the aggravating factors outweigh the
mitigating factors, and unanimously recommend a sentence of death.
-5-

*i*r'

202 So. 3d at 57. We have since receded from this holding, “except to the extent it
requires a jury unanimously to find the existence of a statutory aggravating
circumstance beyond a reasonable doubt.” Poole, 45 Fla. L. Weekly at S48. The
Supreme Court’s recent decision in McKinney confirms that we correctly
interpreted Hurst v. Florida in Poole and supports our decision to recede from the
additional requirements imposed by Hurst v. State.2 McKinney, 140 S. Ct. at 7073
(“Under Ring [v. Arizona, 536 U.S. 584 (2002),] and Hurst [v. Florida], a jury
must find the aggravating circumstance that makes the defendant death eligible.
But importantly, in a capital sentencing proceeding just as in an ordinary
sentencing proceeding, a jury (as opposed to a judge) is not constitutionally
required to weigh the aggravating and mitigating circumstances or to make the
ultimate sentencing decision within the relevant sentencing range.”).
Beyond the requirement that a jury unanimously find the existence of an
aggravating circumstance beyond a reasonable doubt, as explained in Poole, the

2. The foundation underpinning Hurst v. State was an erroneous reading of
Hurst v. Florida as imposing a constitutional requirement for unanimous jury
“findings” on sentencing factors beyond the existence of at least one aggravating
circumstance. See Hurst v. State, 202 So. 3d at 44 (“[W]e hold that the Supreme
Court’s decision in Hurst v. Florida requires that all the critical findings necessary
before the trial court may consider imposing a sentence of death must be found
unanimously by the jury.”). McKinney confirms that our prior decision in Hurst v.
State was erroneously grounded on a fundamental misunderstanding of Hurst v.
Florida, as we held in Poole.

-6-

holding of Hurst v. State is not supported by state or federal constitutional law or
the statutory law that was in effect before its issuance. Poole, 45 Fla. L. Weekly at
S43-48; accord McKinney\ 140 S. Ct. at;707-8. . In contrasty the requirement that a
jury, not the judge, find the existence of an aggravating circumstance is mandated
by the Supreme Court’s decision in Hurst v. Florida, 136 S. Ct. at 624, as a Sixth
Amendment requirement. McKinney140 S. Ct. at 707; Poole, 45 Fla. L. Weekly
at S44-47.
The Sixth Amendment test required by Hurst v. Florida, 136 S. Ct. at 624,
and applied in Poole, 45 Fla. L. Weekly at S47-S48, is easily met in Owen’s case
because unanimous jury findings did support two of the aggravators in Owen’s
case (prior violent felony and in the course of a burglary) and would preclude a
finding of Hurst v. Florida error. See Hurst v. Florida, 136 S. Ct. at 624 (finding
that Florida’s sentencing scheme violated the Sixth Amendment because it
“required the judge alone to find the existence of an aggravating circumstance”);
Poole, 45 Fla. L. Weekly at S48. Specifically, the prior-violent-felony aggravator
was established by Owen’s convictions, after a jury trial, of the first-degree murder
and sexual battery of Worden. Owen III, 986 So. 2d at 553, 555; Owen, 596 So. 2d

-7-

at 986-87 (Worden case).3 The “in the course of a burglary” aggravator was
established by the jury’s verdict of guilt as to that offense in this case. Owen II,
862 So. 2d at 690. In fact, Owen conceded the existence of both of these
aggravators at sentencing. Id. at 702.
CONCLUSION
Because Owen’s jury found that he committed first-degree murder and
because jury findings establish the existence of two statutory aggravators, he is
eligible for the death penalty under the law in effect at the time of his crime, and
there is no constitutional infirmity in his sentence under Hurst v. Florida or the
portion of the Hurst v. State holding that remains after our decision in Poole.
Accordingly, we affirm the order of the circuit court upholding the death sentence
imposed in this case.
It is so ordered.
CANADY, C.J., and POLSTON, LAWSON, MUNIZ, and COURIEL, JJ., concur.
LABARGA, J., recused.
NOT FINAL UNTIL TIME EXPIRES TO FILE REHEARING MOTION AND,
IF FILED, DETERMINED.
An Appeal from the Circuit Court in and for Palm Beach County,
Glenn D. Kelley, Judge - Case No 501984CF004014AXXXMB

3. The trial court relied on additional prior violent felonies, against two
additional victims, to establish this aggravator as well. However, for the purpose
of our decision today, it is sufficient to note the Worden murder and sexual battery.

-8-

Eric Pinkard, Capital Collateral Regional Counsel, and James L. Driscoll Jr.,
Assistant Capital Collateral Regional Counsel, Middle Region, Temple Terrace,
Florida,
for Appellant
Ashley Moody, Attorney General, Tallahassee, Florida, and Celia A. Terenzio,
Assistant Attorney General, Palm Beach, Florida,
for Appellee
Arthur I. Jacobs of Jacobs Scholz & Wyler, LLC, Femandina Beach, Florida,
for Amicus Curiae Florida Prosecuting Attorneys Association

-9-

I

I

*

filing"# 116196260 E-Filed 11/05/2020 11:04:59 AM

Supreme Court of Jflortba
THURSDAY, NOVEMBER 5, 2020
CASE NO.: SC18-810
Lower Tribunal No(s).:
501984CF004014AXXXMB
DUANE EUGENE OWEN

vs.

Appellant(s)

STATE OF FLORIDA
Appellee(s)

Appellant’s Motion for Rehearing is hereby denied.
CANADY, C.J., and POLSTON, LAWSON, MUNIZ, and COURIEL, JJ., concur.
LABARGA, J., recused.
GROSSHANS, J., did not participate.
A True Copy
Test:

<^22
John A. Tomasino
Clerk, Supreme Court

kc

Served:
DAVID DIXON HENDRY
ARTHUR I. JACOBS
JAMES L. DRISCOLL JR.
CELIA TERENZIO
HON. SHARON REPAK BOCK, CLERK
HON. GLENN DAVID KELLEY, JUDGE

IN THE CIRCUIT COURT OF THE FIFTEENTH JUDICIAL CIRCUIT
IN AND FOR PALM BEACH COUNTY, FLORIDA
STATE OF FLORIDA,

CRIMINAL DIVISION: W
CASE NO.: 1984CF004014AXXXMB

v.
DUANE OWEN,
Defendant.
ORDER DENYING DEFENDANT’S SUCCESSIVE
MOTION TO VACATE JUDGMENTS OF CONVICTION AND SENTENCE
THIS CAUSE came before the Court on Defendant Duane Owen’s (“Defendant”)
“Successive Motion to Vacate Judgment of Conviction and Sentence” (DE #306) (“Motion”), filed
pursuant to Florida Rule of Criminal Procedure 3.851 on January 6, 2017. The State filed its
Amended Response to Defendant’s Successive Motion to Vacate Judgments of Conviction and
Sentence1 (DE #326) (“State’s Response”) on May 26,2017, and the Court held a hearing at which
the parties presented arguments on July 18, 2017. On September 28, 2017, Defendant filed his
supplemental Briefing in Support of Vacating Death Sentences (DE #353) (“Supplemental
Briefing”), and the State filed its Supplemental Response to Successive Motion to Vacate Sentence
(DE #354) (“Supplemental Response”). The Court then held a final hearing on the issues presented
on December 11, 2017. After conducting a thorough review of the court file and record in this
case, the Court has carefully examined and considered Defendant’s Motion and Supplemental
Briefing, the State’s Response and Supplemental Response, all arguments presented at the July 18

l

The State filed its original Response to Defendant’s Successive Motion to Vacate Judgments of
Conviction and Sentence on May 25, 2017 (DE #325), but filed an Amended Response the
following day. The Court considers the State’s Amended Response to Defendant’s Successive
Motion to Vacate Judgments of Conviction and Sentence to be superseding.

.V'*

and December 11,2017 hearings, all supplemental authority filed by the parties,2 and all applicable
law.
FACTUAL AND PROCEDURAL HISTORY
Defendant was charged with first degree murder, sexual battery, and burglary relating to
the March 24, 1984 murder of Karen Slattery. Defendant forcibly entered a Delray Beach home
where the victim was babysitting, stabbed and then sexually assaulted the victim. Defendant was
arrested in May 1984 after he was identified as a burglary suspect. Defendant was questioned
regarding the May 29, 1984 murder of Georgianna Worden in Boca Raton (case no. 1984-CF004000-AXXX-MB) when, during the course of several interrogations, Defendant confessed to
the instant crimes and several other crimes, including the Georgianna Worden murder. At trial for
the charges in the instant case, the State presented Defendant’s confession and corroborating
evidence, including a bloody footprint found at the scene. The jury returned guilty verdicts on the
charges and recommended death; the judge followed the jury’s recommendation and imposed a
death sentence.
Defendant appealed his convictions and sentence, and on March 1, 1990, the Florida
Supreme Court reversed the convictions and remanded for a new trial after finding that
Defendant’s confession was obtained in violation of Miranda v. Arizona? Owen v. State, 560 So.
2d 207, 212 (Fla. 1990). Before Defendant’s retrial, the State moved for reconsideration in light

2 The State’s supplemental authority, filed June 29, 2017 (DE #334), included Jenkins v. Hutton,
137 S. Ct. 1769 (2017). Defendant’s first supplemental authority, filed December 4, 2017 (DE
#367), included penalty phase verdict forms from the following three cases: (1) State v. Bannister,
No. 2011CF003085 (Fla. 5th Cir. Ct. Nov. 11, 2017); (2) State v. Matos, No. 2014-CF-005586AXWS (Fla. 6th Cir. Ct:Nov. 21, 2017); and (3) State v. Wells, No. 2011-CF-000498-B (Fla. 8th
Cir. Ct. Oct. 4, 2017). Defendant’s second supplemental authority, filed December 21, 2017 (DE
#373), included Ellerbee v. State, 42 Fla. L. Weekly S973a (Fla. Dec. 21, 2017), and LeBron v.
State, 42 Fla. L. Weekly S986a (Fla. Dec. 21, 2017).
3 384 U.S. 436 (1966).
Page 2 of 19

of the United States Supreme Court’s decision in Davis v. United States, 512 U.S. 452 (1994),
which held that “neither Miranda nor its progeny require police officers to stop interrogation when
a suspect in custody, who has made > knowing and voluntary waiver of his Miranda rights,
thereafter makes an equivocal or ambiguous request for counsel.” State v. Owen, 696 So. 2d 715,
717 (Fla. 1997) (describing the holding in Davis). The Florida Supreme Court ultimately ruled
that while Defendant’s responses were equivocal and Davis applied to Defendant’s interrogation,
the previous decision reversing Defendant’s convictions was final and his prior convictions could
not be retroactively reinstated. Id. at 720.
Defendant was re-tried in 1999 and was again convicted of first degree murder, as well as
attempted sexual battery with a deadly weapon or force likely to cause serious personal injury and
burglary of a dwelling while armed. Following the penalty phase, the jury recommended death by
a vote of ten-to-two. The trial judge followed the jury’s recommendation and imposed a death
sentence, finding the existence of four aggravating circumstances: (1) the defendant had been
previously convicted of another capital offense or of a felony involving the use of violence to some
person; (2) the crime for which the defendant was to be sentenced was committed while he was
engaged in the commission of or an attempt to commit or flight after committing or attempting to
commit the crime of burglary; (3) the crime for which the defendant was to be sentenced was
v
especially heinous, atrocious, or cruel (HAC); and (4) the crime for which the defendant was to be
sentenced was committed in a cold and calculated and premeditated manner without any pretense
of moral or legal justification (CCP). Owen v. State, 862 So. 2d 687, 690 (Fla. 2003). The trial
court considered three statutory mitigating factors: (1) the crime for which the defendant was to
be sentenced was committed while he was under the influence of extreme mental or emotional
disturbance; (2) the capacity of the defendant to appreciate the criminality of his conduct or to
Page 3 of 19

conform his conduct to the requirement of the law was substantially impaired; and (3) the age of
the defendant at the time of the crime was twenty-three. Id. The trial court also considered sixteen
. nonrstatutory mitigating factors.4 Id: at 690-91.'The Florida Supreme Court affirmed,Defendant’s
convictions and sentence on October 23, 2003. Id. at 704. The United States Supreme Court then
denied Defendant’s petition for writ of certiorari on November 15, 2004. Owen v. Florida, 543
U.S. 986 (2004).
Defendant filed his initial motion for post-conviction relief pursuant to rule 3.851 on
November 1, 2005, raising eight claims that included numerous sub-issues. An amended motion
was filed May 18, 2006, and following an evidentiary hearing on August 11, 2006, the trial court
denied the motion by written Order of September 22, 2006. Defendant appealed the trial court’s
denial and petitioned the Florida Supreme Court for a writ of habeas corpus. Owen v. State, 986
So. 2d 534 (Fla. 2008). On May 8, 2008, the Florida Supreme Court affirmed the denial of post-

4 As related by the Florida Supreme Court, “The sixteen non-statutory mitigating factors were: (1)
the defendant was raised by alcoholic parents (some weight); (2) the defendant was raised in an
environment of sexual and physical violence (some weight); (3) the defendant was a victim of
physical and sexual violence (some weight); (4) the defendant was abandoned by the deaths of his
parents and abandoned by other family members (some weight); (5) the defendant has a mental
disturbance and his ability to conform his conduct to the requirements of law was impaired (some
weight) (6) the defendant was cooperative in court and not disruptive during court proceedings
(little weight); (7) the defendant has made a good adjustment to incarceration and will be a good
prisoner (little weight); (8) the offense for which the defendant was to be sentenced happened
fifteen years ago (little weight); (9) the defendant will never be released from prison if given life
sentences without parole (minimal weight); (10) the defendant cooperated with law enforcement
(little weight); (11) the defendant obtained a high school equivalency diploma (little weight); (12)
the defendant received a general discharge under honorable conditions from the United States
Army (little weight); (13) the defendant saved a life in his youth (little weight); (14) the defendant
suffered from organic brain damage (some weight); (15) the defendant lived in an abusive
orphanage (some weight); and (16) any other circumstances of the offense (some weight). As to
this final nonstatutory mitigating factor, the trial court considered the fact that Owen did not harm
the two young children that Karen Slattery was babysitting at the time of her murder, nor did he
harm Georgianna Worden’s two young children who were present in her home at the time of her
murder.” Owen v. State, 862 So. 2d at 690-91, n.3.
Page 4 of 19

%

conviction relief and denied Defendant’s petition for writ of habeas corpus. Id. at 560. Following
these state proceedings, on August 7,2008, Defendant filed a federal habeas corpus petition in the
United States District Court for the Southern District of Florida; which was denied on November
30,2010. Owen v. Florida Dep’t of Corrections, 686 F 3d 1181, 1191 (11th Cir. 2012). On July
11,2012, the Eleventh Circuit affirmed the denial of Defendant’s federal habeas petition; Id. at
1202. The United States Supreme Court then denied Defendant’s subsequent petition for writ of
certiorari on April 29, 2013. Owen v. Crews, 569 U.S. 960 (2013).
On January 6, 2017, Defendant filed the instant Successive Motion to Vacate Judgment of
Conviction and Sentence. In the Motion, Defendant requests that the Court vacate his death
sentence, arguing that it is unconstitutional based on the United States Supreme Court’s decision
in Hurst v. Florida, 136 S. Ct. 616 (2016), and the Florida Supreme Court’s subsequent decision
on the remand of that case, Hurst v. State, .202 So. 3d 40 (Fla. 2016). A case management
conference was held on July 18, 2017, at which counsel presented arguments to the Court. At the
conclusion of the hearing, the Court provided counsel an opportunity to file supplemental briefing
on the retroactivity of the Hurst decisions, and whether any Hurst error that may have occurred in
this case could be considered harmless. Both Defendant and the State filed supplemental briefings
on September 28, 2017. A final hearing on these issues was held on December 11,2017.
LEGAL ANALYSIS AND RULING
In Hurst v. Florida, the Supreme Court held that Florida’s capital sentencing scheme was
unconstitutional to the extent that it failed to require the jury to make all factual findings necessary
to impose a sentence of death. In so doing, the Supreme Court rejected Florida’s use of an advisory
verdict by the jury as “not enough.” Hurst v. Florida, 136 S.Ct. at 619. The Supreme Court did
not decide whether this sentencing error was subject to a harmless error analysis.
Page 5 of 19

On remand, the Florida Supreme Court decided Hurst v. State. In Hurst v. State, the Florida
Supreme Court held, inter alia, that al 1 findings necessary for the imposition of a sentence of death
. '

in a capital*case must be found unanimously by the jury.5 Specifically,.the -jury, must make afinding as to each aggravating factor that has been proven beyond a reasonable doubt, must find
that the aggravating factors are sufficient, and must find that the aggravating factors outweigh the
mitigating circumstances. Hurst v. State, 202 So. 3d at 44.
Significantly, the Florida Supreme Court also addressed whether the sentencing error in
Hurst v. Florida was subject to harmless error review. The Court concluded that the sentencing
error was not a structural error and was, therefore, “not incapable of harmless error review.” Hurst
v. State, 202 So. 3d at 66-67.
It is clear in this case that the Defendant’s death sentence was unconstitutional under Hurst
v. Florida and Hurst v, State. However, not all death sentences are subject to review under Hurst.
In Asayv. State, 210 So.3d 1 (Fla. 2016), the Florida Supreme Court held that Hurst does not apply
retroactively to capital defendants whose sentences were final before Ring v. Arizona, 536 U.S.
584 (2002). Ring was decided on June 24, 2002. The Defendant’s death sentence for the murder
of Karen Slattery was not final on June 24, 2002. Therefore, in this case, the Defendant is entitled
to review of his sentence of death in light of Hurst.6
The Defendant raises the following grounds for vacating his death sentence:
1. Based on Hurst his sentence is unconstitutional because he was denied a jury trial;

5 A unanimous verdict was not specifically required by the Supreme Court in Hurst v. Florida.
The unanimity requirement was added by the Florida Supreme Court based on the right to trial by
jury guaranteed by the Florida Constitution. Hurst v. State, 202 So. 3d at 53-54.
6 The Defendant was also sentenced to death for the murder of Georgianna Worden. State v. Duane
Eugene Owen, Case No. 1984CF004000AMB. The Defendant’s sentence in the Worden case
became final before Ring and this Court has already denied the Defendant’s Successive Motion to
Vacate Judgment of Conviction and Sentence in that case.
Page 6 of 19

2. In light of Hurst his sentence violates the Eighth Amendment and is arbitrary and
capricious;
3. The fact-finding necessary to supporthis sentence was not proven beyond a reasonable
doubt as required by Hurst',
4. In light of Hurst his sentence was obtained in violation of the Florida Constitution; and
5. The denial of his post-convictions claims must be reheard and determined under a
constitutional framework.
The starting point of this Court’s analysis in considering the Defendant’s request to set aside his
death sentence must be the harmless error test enunciated by the Florida Supreme Court in Hurst
v. State?
A sentencing error is harmless “only if there is no reasonable possibility that the error
contributed to the sentence.” In the context of Hurst, this means that the burden is on the State to
“prove beyond a reasonable doubt that the jury’s failure to unanimously find all facts necessary
for imposition of the death penalty did not contribute to the death sentence.” Hurst v. State, 202
So. 3d at 68. The Florida Supreme Court emphasized that “[t]he focus is on the effect of the error
on the trier of fact.” Id.
Ground One
The first error alleged by the Defendant is the sentencing error found by the Supreme Court
in Hurst v. Florida and by the Florida Supreme Court in Hurst v. State, the denial of a right to a

7 The Court acknowledges that the Defendant does not concede the application of the harmless
error test to each of the assigned errors. For example, the Defendant asserts that his Eighth
Amendment challenge is not subject to harmless error review. As will be discussed below, the
Court disagrees.
Page 7 of 19

jury trial. This is a Sixth Amendment argument. The Defendant was denied the right to have a
jury unanimously decide all facts necessary for the imposition his sentence of death.
As an initial matter, the Co'urt'must consider the Defendant’s:argument that the sentencing.
error cannot, under any circumstances, be harmless because the penalty phase jury verdict was not
unanimous. In this case, the verdict was ten-to-two for death. The Defendant points out that the
Florida Supreme Court has never found a Hurst error to be harmless in a case were the verdict was
not unanimous. The Court accepts the Defendant’s assertion that the Supreme Court has yet to find
harmless error in any case where the verdict was not unanimous. This appears to be an accurate.
representation of the history of post-Hurst decisions by the Florida Supreme Court. However, the
Court rejects the notion that a Hurst sentencing error can never be harmless if the original penalty
phase verdict is less than unanimous.
First, the Florida Supreme Court has never held that a sentencing error could not be
harmless unless there was a unanimous verdict. Second, to blindly determine harmless error based
on the initial numerical vote of a jury that was not instructed that they needed to reach a unanimous
verdict would make a harmless error analysis meaningless.

Indeed, there would be no analysis.

The Court does not believe that the Florida Supreme Court intended such a result. Certainly, the
Florida Supreme Court expects, and demands, in cases involving the most serious and heinous
crimes against our citizenry that harmless error does not simply rise or fall on the numerical vote
of a jury who was.not instructed as to the need for unanimity.
This does not mean that the lack of unanimity should not be a significant factor in
determining harmless error.

However, any meaningful review must also consider whether a

rational jury instructed as to unanimity would find beyond a reasonable doubt the existence of

Page 8 of 19

sufficient aggravators, that those aggravators outweighed any mitigating circumstances, and that
an appropriately instructed jury would unanimously recommend a death sentence.
In this case, there were four^ggravators to be considered. - The aggravating circumstances
were:
(1) The defendant had been previously convicted of another capital offense or of a felony
involving the use of violence to some person. § 921.141 (6)(b);
(2) The crime for which the defendant was to be sentenced was committed while he was
engaged in the commission of or an attempt to commit or flight after committing or attempting to
commit the crime of burglary. § 921.141(6)(d);
(3) The crime for which the defendant was to be sentenced was especially heinous,
atrocious, or cruel (“HAC”). § 921.141 (6)(h); and
(4) The crime for which the defendant was to be sentenced was committed in a cold and
calculated and premeditated manner without any pretense of moral or legal justification (“CCP”).
§921.141(6)(i).
While the Court’s role is not to review the sufficiency of the evidence relating to these
aggravating circumstances, in assessing the effect of the sentencing error on the trier of fact the
evidence relating to each aggravator must be considered. Notably, the first two aggravators have
already been found by a jury beyond a reasonable doubt.
The first statutory aggravator is a prior conviction for another capital offense or felony
involving violence to some person. This aggravator is undisputed. At the time of the trial in this
case, the Defendant had already been convicted of a capital offense for the brutal murder of
Georgianna Worden. State v. Duane Eugene Owen, Case No. 1984CF004000AMB. The Worden
case involved facts similar to this case. In the Worden case, the Defendant entered the home of
Page 9 of 19

•*?
■*1

Ms. Worden. Upon gaining entry to the home, the Defendant bludgeoned Ms. Worden to death
with a hammer and sexually assaulted her.8 A unanimous jury in the Worden case found beyond
a reasonable .doubt, that the Defendant was guilty bf-first degree murder, sexual battery and
burglary.
While Defendant’s previous conviction for a capital offense - i.e. the murder of Georgianna
Worden - is the most significant and horrific felony involving violence to another person, the
Defendant had also been convicted of other violent felonies. These felonies included attempted
first degree murder, burglary of a dwelling while armed with a dangerous weapon, sexual battery
with a deadly weapon and burglary of a dwelling with an assault or battery.
The second statutory aggravator has also been found by a unanimous jury. The jury in this
case found that the Defendant committed the crime of burglary when he entered the residence
where he ultimately raped and murdered Karen Slattery.

This aggravator, therefore, cannot be

disputed.
The third and fourth statutory aggravators were not found unanimously by a jury.
However, the evidence supporting these aggravators was significant and overwhelming. Both
aggravators were addressed and discussed in this case by the Florida Supreme Court on direct
appeal.9
The third aggravator, HAC, applies to murders that “evince extreme and outrageous
depravity as exemplified either by the desire to inflict a high degree of pain or utter indifference
to or enjoyment of the suffering of another.” Owen v. State, 862 So. 2d 687, 698-99 (Fla. 2003)

8 While not relevant to the harmless error analysis in this case, the jury recommended a sentence
of death in the Worden case.
9 This Court has independently reviewed the record evidence in this case. However, the Court
cannot improve on the Florida Supreme Court’s own observations and conclusions concerning
HAC and CCP in this case.
Page 10 of 19

(quoting Brown v. State, 721 So. 2d 274, 277 (Fla. 1998) and Shere v. State, 579 So. 2d 86, 95
(Fla. 1991)).

This aggravator focuses on. “the means and manner in which death is inflicted.”

Owen, id-, at 699.

.

While this Court is not tasked with, weighing the evidence of HAC, the Court must
determine based on the record whether a properly instructed jury would find beyond a reasonable
doubt the existence of HAC in the killing of Karen Slattery. There is no doubt that a rational jury
would so find.
As detailed by the Florida Supreme Court, and as confirmed by this Court’s independent
review of the record, “Owen’s killing of Karen Slattery unquestionably satisfies the requirement
of HAC.” Owen, id at 699-700.

The Florida Supreme Court explained the record evidence of

HAC as follows:
Here, the medical examiner testified that Slattery suffered eighteen stab wounds—eight to
her upper back, four cutting wounds to the front of her throat, and six stab wounds to her
neck. Five of the wounds penetrated her lungs, causing them to collapse, making it
impossible for Slattery to breath or speak. She would have experienced “air hunger”—the
feeling of needing to breathe but not being able to do so. The doctor estimated that Slattery
lost nearly her entire blood volume. The result of severe blood loss is shock, an involuntary
and uncontrollable condition that causes high anxiety and terror. The doctor explained that
pain is a result of the nerve receptors in the skin being injured, and that people can
experience a substantial amount of pain without suffering a lethal injury.
Although Slattery did not appear to have any defensive wounds, seven of the stab wounds
were lethal and could have produced death. While the medical examiner could not
determine which wounds were inflicted first, he believed they were all inflicted in rapid
succession, and all while Slattery was alive. The doctor opined that Slattery would have
been capable of feeling pain as long as she was conscious, which he estimated would have
been for between twenty seconds and two minutes, depending upon which wound was
inflicted first. He testified that one minute was a reasonable estimate for how long Slattery
remained conscious, as twenty seconds was too short, but two minutes would have been a
“little long.” During that time she would have felt pain, experiencing the additional stab
wounds, would have felt terror and shock, would have been aware of her impending doom,
would have become weaker as a result of blood loss, and would have been unable to cry
out. Finally, according to the medical examiner, although she may have been dead prior to
the occurrence, Slattery was sexually assaulted, and semen was found on both her internal
and external genitalia.
Page 11 of 19

In addition to the evidence presented by the medical examiner, the testimony of Owen's
own mental health expert supports the finding of HAC. Dr, Frederick Berlin testified that
Owen believed that by having sex with a woman he could obtain her bodily fluids, and that
this would assist him in his transfonnation.from a male to a female. Owen believed.that-if
he had sex with a woman who was near death, his penis would act as a hose, and her soul
would enter his body and they would “become one.” Importantly, Owen believed that the
more frightened the victim was, the better. This express need to cause his victim extreme
fear clearly evinces an utter indifference to his victim’s torture
Owen, id at 699. Based on the facts of this case, a properly instructed rational jury would find
unanimously that the murder of Karen Slattery was heinous, atrocious and cruel.
The fourth aggravator was CCP. The Florida Supreme Court has established a four-part
test to determine whether the CCP aggravator is justified. The test requires: (1) the killing must
have been the product of cool and calm reflection and not an act prompted by emotional frenzy,
panic, or a fit of rage (cold); (2) the defendant must have had a careful plan or prearranged design
to commit murder before the fatal incident (calculated); (3) the defendant must have exhibited
heightened premeditation (premeditated); and (4) the defendant must have had no pretense of
moral or legal justification. Owen, id. at 862; Evans v. State, 800 So.2d 182, 192 (Fla.2001).
The Florida Supreme Court again detailed the record evidence supporting CCP in this case
stating:
Clearly, as with the Worden murder, the murder of Karen Slattery satisfies the requirements
of CCP. The fact that Owen stalked Slattery by entering the house, observing her, leaving,
and then returning after the children were asleep demonstrates that this murder was the
“product of cool and calm reflection and not an act prompted by emotional frenzy, panic,
or a fit of rage.” Evans, 800 So.2d at 192 (quoting Jackson v. State, 648 So.2d 85, 89
(Fla. 1994)). Further, Owen unquestionably had “a careful plan or prearranged design to
commit murder,” id., as evidenced by the fact that he removed his clothing prior to entering
the house, wore socks and then gloves on his hands, confronted the fourteen-year-old girl
with a hammer in one hand and a knife in the other, and, by his own admission, did not
hesitate before stabbing Slattery eighteen times.
The third element of CCP, heightened premeditation, is also supported by competent and
substantial evidence. We have previously found the heightened premeditation required to
Page 12 of 19

sustain this aggravator to exist where a defendant has the opportunity to leave the crime
scene and not commit the murder but, instead, commits the murder. See Alston v. State,
723 So.2d 148, 162 (Fla. 1998); Jackson v. State, 704 So.2d 500, 505 (Fla. 1997). When
Owen first entered the home and saw the fourteen-year-old babysitter styling the hair of
one of her charges, he had the. opportunity to leave the home and not commit the. murder.
•While he did exit the home at that time, he did not decide against killing Slattery. Instead,
he returned a short time later, armed himself, confronted the young girl, and stabbed her
eighteen times. Owen clearly entered the home the second time having already planned to
commit murder. Heightened premeditation is supported under these facts.
Finally, the appellant unquestionably had no pretense of moral or legal justification.
Notably, Owen never even suggested to the officers who questioned him, and to whom he
confessed, in 1984 that a mental illness caused him to kill. He did not attempt to justify his
actions, as he does in the after-the-fact manner he advances today, by explaining to the
officers that he needed a woman's bodily fluids to assist in his transformation from a male
to a female.

Owen, id. at 701. As with HAC, a properly instructed rational jury would find beyond a reasonable
doubt that the brutal murder of Karen Slattery was cold, calculated and premeditated.
Evidence of the aggravating factors in this case was overwhelming. Two of the aggravators
were established by a unanimous jury beyond a reasonable doubt. Based on a review of the record
evidence in this case, the Court concludes that a properly instructed jury would have found
unanimously HAC and CCP beyond a reasonable doubt.
The Court next needs to consider the issue of sufficiency. Sufficiency is a consideration
of the nature and weight of the aggravating factors without regard to any possible mitigating
circumstances.

The Court concludes that the any rationale jury properly instructed would

unanimously find that the aggravating factors here were sufficient to support a sentence of death.
The aggravators in this case are the most serious aggravators in the statutory sentencing
scheme. The Defendant had previously been convicted of a capital felony, the brutal murder of
Georgianna Worden, and of other violent felonies. HAC and CCP were both present. There is

Page 13 of 19

no doubt that a properly instructed jury in considering these aggravators would have unanimously
found the aggravators to be sufficient to.impose a.sentence of death.
The Court must now consider, whether, a rationale jury properly instructed would find that
the aggravators outweighed the mitigating .circumstances.

During the penalty phase, three

statutory mitigating factors were presented along with sixteen non-statutory mitigating factors.
The statutory mitigating factors were: (1) the crime for which the defendant was to be
sentenced was committed while he was under the influence of extreme mental or emotional
disturbance; (2) the capacity of the defendant to appreciate the criminality of his conduct or to
conform his conduct to the requirement of the law was substantially impaired; and (3) the age of
the defendant at the time of the crime was twenty-three.
Evidence of mental illness was presented at trial; however, the nature and extent of the
Defendant’s illness was vigorously challenged by the State. The jury, during the guilt phase,
rejected the Defendant’s insanity defense.

During the penalty phase, the Defendant’s experts

relied heavily on Defendant’s delusional belief that he was a woman. This belief was the lynchpin
of the mental health opinions expressed by Dr. Berlin and Dr. Sultan.
The Defendant’s mental health experts testified that, at the time of the offense, the
Defendant suffered from an extreme mental or emotional disturbance. Specifically, the experts
opined that the Defendant met “most” of the criteria for a delusional disorder and met the criteria
for schizophrenia. Significantly, the defense experts premised their opinions on the Defendant’s
own questionable self-reporting of his delusions.
This self-reported delusion was never raised until 12 years after the murder of Karen
Slattery. As noted by the Florida Supreme Court “Owen never even suggested to the officers who
questioned him, and to whom he confessed, in 1984 that a mental illness caused him to kill. He
Page 14 of 19

did not attempt to justify his actions, as he does in the after-the-fact manner he advances today, by
explaining to the officers that he needed a woman’s bodily fluids to assist in his transformation
from a male to a female.” OweXMs-at701;l0'-Nevertheless, wHile.vigorously contested, there was
some evidence to support this statutory mitigating circumstance.
There was little evidence in the record to support a finding that he did not appreciate the
criminality of his conduct. To commit the crime, the Defendant wore socks over his hands to avoid
detection. He showered after the. murder, was careful not to take property from the home that
could place him at the scene of the crime and he fled the scene. There is evidence to support a
conclusion that he could not conform his conduct to the requirements of the law. He was, indeed,
a repeat offender.11
There were 16 non-statutory mitigating circumstances presented during the penalty phase
of the trial. Most of these mitigating factors do not require discussion. The most significant nonstatutory mitigating circumstance was the Defendant’s childhood and youth.
The evidence establishes that the Defendant was exposed to a horrific childhood, His
parents were alcoholics. He witnessed his mother being abused and raped. The Defendant was
physically and sexually abused. His mother passed away when the Defendant was a child and his
father committed suicide. The Defendant was sent to the VFW National Home where the sexual
and physical abuse continued.

There can be no disputing that the Defendant’s childhood,

formative years and youth impacted him a profound way. As observed by the original trial court

10 The Supreme Court went on to state “Owen’s claim that his mental illness must negate the CCP
aggravator is unpersuasive.” Owen, id. at 701.
11 The third statutory mitigating circumstances requires no discussion. It is undisputed that the
Defendant was young, 23, at the time of the murder.
Page 15 of 19

“is it any wonder the Defendant is, and has been, mentally sick?” Clearly, the evidence of this
non-statutory mitigating circumstance was established at trial.
..

The ultimate issue left to: be-decided, is whether the State .has met its-burden to ‘-prove .

beyond a reasonable doubt that the jury’s.failure to unanimously find all facts necessary for
imposition of the death penalty did not contribute to the death sentence.” Hurst v. State, 202 So.
3d at 68. In $os\-Hurst cases where harmless error has been found, the Supreme Court has
considered: 1) whether the aggravators were overwhelming and uncontroverted; 2) whether the
defendant challenged the aggravators; 3) whether the mitigation was comparatively weak and
challenged by the State; and 4) the numerical vote of the jury during the penalty phase. See, e.g.
King v. State, 211 So. 3d 866, 892-93 (Fla. 2017).
The record evidence in this case overwhelmingly establishes that the statutory aggravators
outweigh the mitigating circumstances. Two aggravators are uncontested and were found by a
jury beyond a reasonable doubt. The mitigating circumstances were, by comparison, relatively
weak and were vigorously contested by the State. Nevertheless, a jury hearing this evidence
rendered a less than unanimous verdict recommending the imposition of the death penalty. The
question is whether, without a unanimous verdict, the State has met its burden of establishing
harmless error beyond a reasonable doubt? This Court readily concludes that the State has met its
burden.
While the lack of a unanimous verdict poses a hurdle to finding harmless error, the Court
must consider whether a rationale jury instructed on the need for a unanimous verdict to return a
sentence of death would reach such a verdict in this case. In this case, the jury was instructed that
its verdict was advisory only. The jury was further instructed that if a majority of the jury voted
for the death penalty the verdict was a recommendation of death.
Page 16 of 19

Properly instructed, the jury would have been told that: 1) at least one aggravating factor
must be found unanimously; 2) the jury must find unanimously that the aggravating factor or
. factors -'found by . the jury are, sufficient to. impose : the death; penalty; and 3) the. jury must
unanimously find that the aggravating .factors outweigh the mitigating circumstances. The jury
would also have been instructed that, regardless of the jury’s findings, no juror is compelled to
vote for death.
The difficulty in determining the impact of the error on the trier of fact as compelled by
Hurst v. State is, of course, the need to speculate about why two jurors did not vote for death.
However, every harmless error analysis requires a degree of speculation and an assessment of the
unknown. This is why courts are required to look at the totality of the evidence to determine the
impact of the error on the trier of fact.
The record evidence in this case can only support one conclusion. If the jury had been
instructed on the need for a unanimous verdict the jury would unanimously find: 1) four
aggravating factors including HAC and CCP; 2) the aggravating factors were sufficient to impose
the death penalty; 3) the aggravating factors outweigh the mitigating circumstances; and 4) death
was the appropriate penalty.
Ground Two
The Defendant next raises an Eighth Amendment challenge his death sentence. While the
Defendant asserts that his sentence is “arbitrary and capricious” this argument is nothing more
than a restatement and repackaging of the Hurst jury trial issue.12 The Defendant asserts that
because his right to jury trial was denied his sentence was violative of the Eighth Amendment.

12 As will be discussed, all of the remaining grounds for vacatur of the Defendant’s death sentence
are all based on Hurst.
Page 17 of 19

The Defendant also asserts that an Eighth Amendment violation is not subject to harmless error
review.
-The Defendant is correct-that .a sentence of death without, a unanimous jury, verdict is
violative of the Eighth Amendment. This was the holding of the Florida Supreme Court in Hurst
v. State. Hurst v. State, 202 So. 3d at 59-60.. However, it is equally clear that a Hurst Eighth
Amendment violation is subject to a harmless error analysis. See, e.g. Philmore v. State, 234 So.
3d 567, 568 (Fla. 2018)(defendant’s Eighth Amendment violation under Hurst harmless beyond a
reasonable doubt).
The Court has already addressed whether the Hurst error in this case under the Sixth
Amendment was harmless beyond a reasonable doubt.

The same analysis applies to the

Defendant’s Eighth Amendment Hurst claim. For the reasons already expressed, the Court
concludes that the State has met its burden to demonstrate that the Eighth Amendment Hurst error
in this case is harmless beyond a reasonable doubt.
Grounds Three Four and Five
The Defendant asserts three additional grounds to vacate his sentence of death. The
Defendant asserts as additional grounds: (1) The fact-finding necessary to support his sentence
was not proven beyond a reasonable doubt as required by Hurst:; (2) In light of Hurst his sentence
was obtained in violation of the Florida Constitution; and (3) The denial of his post-convictions
claims must be reheard and determined under a constitutional framework.
All of these grounds are nothing more than a repackaging of the original Hurst error. They
are each based on the right to a jury trial under the Sixth Amendment and pursuant to article I,
section 22 of the Florida Constitution. No additional analysis of these claims is required. Each is
subject to the same Hurst harmless error review previously discussed and as to each additionally
Page 18 of 19

asserted ground the State has met its burden to demonstrate that the error is harmless beyond a
reasonable doubt.
v For the foregoing reaisdnS,-.:itis hereby,
ORDERED AND ADJUDGED that Defendant Duane Owen’s Successive Motion to
Vacate Judgment of Conviction and Sentence is DENIED.
DONE AND ORDERED in Chambers, at West Palm Beach, Palm Beach County, Florida
this _9th_ day of May, 2018.

#*s

i/ y y

d^rt***GrfK

Judge Glenn D. Kelley
Circuit court judge

Copies Furnished to:
James L. Driscoll, Esq.- Driscol 1 @ccmr.state.fl.us
Davis Dixon Hendry, Esq.- Hendrv@ccmr.state. fl .us
Gregory W. Brown, Esq.- Brown@ccini.state.fl.us
Capital Collateral Regional Counsel- Middle
12973 N. Telecom Parkway
Temple Terrace, FL 33637
Assistant Attorney General:
Celia Terenzio, Esq.- CapApp@mviloridalegal.com:
Celia.Tcrenzio@invfloridalegal.coin
1515 N. Flagler Dr., #900
West Palm Beach, FL 33401

Page 19 of 19

scjk6urr
■■■

1^5r Tn»'

-r.

